VISA CLASSIC/VISA PLATINUM
APPLICATION AND SOLICITATION DISCLOSURE

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Classic

3.99%

Introductory APR for a period of six billing cycles.

7.90%
, 8.90%
,
15.90% , based on your creditworthiness.

After that your APR will be

10.90%

, or

Visa Platinum

3.99%

Introductory APR for a period of six billing cycles.

After that your APR will be

12.40%

APR for Balance Transfers

7.40%

,

8.40%

, or

, based on your creditworthiness.

Visa Classic

3.99%

Introductory APR for a period of 18 billing cycles.

After that your APR will be 7.90%

15.90%

, 8.90%

, 10.90%

, or,

based on your creditworthiness.

Visa Platinum
3.99%

Introductory APR for a period of 18 billing cycles.

After that your APR will be 7.40%
on your creditworthiness.
APR for Cash Advances

, 8.40%

, or 12.40%

based

Visa Classic
2.99%

Introductory APR for a period of 18 billing cycles.

After that your APR will be 7.40%
on your creditworthiness.

, 8.40%

, or 12.40%

based

Visa Platinum
2.99%

Introductory APR for a period of 18 billing cycles.

After that your APR will be 7.40%
on your creditworthiness.

, 8.40%

, or 12.40%

based

How To Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or using a
For Credit Card Tips from the
Consumer Financial Protection Bureau credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Cash Advance Fee
- Foreign Transaction Fee

1.00%
1.00%

Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Up to $25.00
Up to $30.00

CUNA Mutual Group 2009, 10, 12 All Rights Reserved

of the amount of each cash advance
of each transaction in U.S. dollars

KMIZB0 (MXC403 CCM003)-e

How We Will Calculate Your Balance: We use a method called "average daily balance (including new
purchases)."
Visa Classic - Promotional Period for Introductory APR: The Introductory APR for balance transfers and cash
advances will apply to transactions posted to your account during the first 18 months following the opening of
your account. The Introductory APR for purchases will apply to transactions posted to your account during the
first six months following the opening of your account.
Visa Platinum - Promotional Period for Introductory APR: The Introductory APR for balance transfers and cash
advances will apply to transactions posted to your account during the first 18 months following the opening of
your account. The Introductory APR for purchases will apply to transactions posted to your account during the
first six months following the opening of your account.
Visa Classic - Loss of Introductory APR: We may end your Introductory APR for purchases, balance transfers,
and cash advances and apply the prevailing non-introductory APR if you are 60 days late in making a payment.
Visa Platinum - Loss of Introductory APR: We may end your Introductory APR for purchases, balance
transfers, and cash advances and apply the prevailing non-introductory APR if you are 60 days late in making
a payment.
Effective Date:
The information about the costs of the card described in this application is accurate as of January 1, 2016 .
This information may have changed after that date. To find out what may have changed, contact the Credit
Union.
OTHER DISCLOSURES
Late Payment Fee

$25.00

Returned Payment Fee

$30.00

Returned Convenience Check Fee

$35.00

Rush Fee
Pay-by-Phone Fee

$30.00
$10.00

or the amount of the required minimum payment, whichever is
less, if you are five or more days late in making a payment.
or the amount of the required minimum payment, whichever is
less.
or the amount of the returned convenience check, whichever is
less.

KMIZB0 (MXC403 CCM003)-e

